No.
(CAPITAL CASE)

In THE
Supreme Court of the Wnited States

ALAN DALE WALKER., PETITIONER,
Vv.

STATE OF MISSISSIPPI, RESPONDENT.

ON PETITION For A WRIT OF CERTIORARI
To THE SUPREME COURT OF MISSISSIPPI

CERTIFICATE OF FILING AND SERVICE OF
PETITION FOR A WRIT OF CERTIORARI

James W. Craig David P. Voisin
Counsel of Record P.O. Box 13984
Hannah A. Lommers-Johnson Jackson, MS 39236
RopERICK & SOLANGE (601) 949-9486
MAcARTHUR JUSTICE CENTER david@dvoisinlaw.com

4400 S. Carrollton Ave.

New Orleans, LA 70119

(504) 620-2259

jim.craig@macarthuzjustice.org
hannah.lommersjohnson@macarthurjustice.org

Counsel for Alan Dale Walker
CERTIFICATE OF FILING AND SERVICE OF
PETITION FOR A WRIT OF CERTIORARI
COMES NOW James W. Craig, a member of the Bar of this Court, and certifies
that:
1. I have this day mailed one paper copy of the Petition for Writ of

Certiorari to the Clerk of this Court by First Class United States Mail.

2. I have this day served LaDonna Holland, counsel for Respondent State
of Mississippi, by First Class Mail, postage prepaid, at her business address, Office

of the Attorney General, Post Office Box 220, Jackson MS 39205.

This the 8th day of March, 2021.

 

THE RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER

4400 S. Carrollton Avenue

New Orleans LA 70119

Tel: 504-620-2259

Fax: 504-208-3133

Email: jim.craig@macarthurjustice.org
